No. 19-1225
In the

Supreme Court of the United States
__________________
PAUL HUNT,
v.

Petitioner,

BOARD OF REGENTS OF THE UNIVERSITY OF
NEW MEXICO, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

__________________

BRIEF IN OPPOSITION
__________________
STEPHEN S. HAMILTON
Counsel of Record
MATTHEW A. ZIDOVSKY
KARI E. OLSON
MONTGOMERY & ANDREWS, P.A.
P.O. Box 2307
Santa Fe, New Mexico 87504-2307
(505) 982-3873
SHamilton@montand.com
Counsel for Respondents
May 28, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
The first and dispositive issue on appeal is whether
the Tenth Circuit properly affirmed the district court’s
grant of qualified immunity to Respondents where
Petitioner failed to identify any case law standing for
the proposition that Respondents’ conduct violated
First Amendment law that was clearly established at
the time of the events giving rise to this litigation.
Should the Court address Petitioner’s constitutional
question, the second issue on appeal is whether
Respondents’ conduct violated Petitioner’s First
Amendment rights.

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
I.

Factual Background . . . . . . . . . . . . . . . . . . . . 2

II.

Procedural Background. . . . . . . . . . . . . . . . . . 6

REASONS TO DENY THE PETITION . . . . . . . . . . 7
I.

The Tenth Circuit Correctly Applied this
Court’s Qualified Immunity Analysis to the
Particular Circumstances of this Case . . . . . . 7

II.

Petitioner’s First Amendment Rights Were
Not Violated . . . . . . . . . . . . . . . . . . . . . . . . . . 16

III.

Both Additional Review and Summary
Reversal Are Unwarranted in this Case . . . 24

IV.

Amici Curiae Briefs . . . . . . . . . . . . . . . . . . . . 30

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

iii
TABLE OF AUTHORITIES
CASES
Anderson v. Creighton,
483 U.S. 635 (1987). . . . . . . . . . . . . . . . . . 7, 10, 16
Ashcroft v. al-Kidd,
563 U.S. 731 (2011). . . . . . . . . . . . . 8, 9, 13, 25, 28
Belsito Commc’ns, Inc. v. Decker,
845 F.3d 13 (1st Cir. 2016) . . . . . . . . . . . . . . . . . 12
Bethel School District No. 403 v. Fraser,
478 U.S. 675 (1986). . . . . . . . . . . . . . . . . . . . . . . 19
Booker v. South Carolina Dept. of Corrections,
855 F.3d 533 (4th Cir. 2017). . . . . . . . . . . . . . . . 28
Brosseau v. Haugen,
543 U.S. 194 (2004). . . . . . . . . . . . . . . . . . 9, 13, 24
Brown v. Battle Creek Police Dept.,
844 F.3d 556 (6th Cir. 2016) . . . . . . . . . . . . . . . 29
Camreta v. Greene,
563 U.S. 692 (2011). . . . . . . . . . . . . . . . . 16, 17, 25
Chaplinsky v. State of New Hampshire,
315 U.S. 568 (1942). . . . . . . . . . . . . . . . . . . . . . . 18
Christian Legal Soc’y v. Martinez,
561 U.S. 661 (2010). . . . . . . . . . . . . . . . . . . . . . . 11
City of Escondido, Cal. v. Emmons,
139 S. Ct. 500 (2019). . . . . . . . . . . . . . . . . . . . . . 26
District of Columbia v. Wesby,
138 S. Ct. 577 (2018). . . . . . . . . . . . . . . 8, 9, 10, 28

iv
Doherty v. S. Coll. of Optometry,
862 F.2d 570 (6th Cir. 1988). . . . . . . . . . . . . . . . 21
Doninger v. Niehoff,
327 F.3d 41 (2d Cir. 2008) . . . . . . . . . . . . . . . . . 17
Eves v. LePage,
842 F.3d 133 (1st Cir. 2016) . . . . . . . . . . . . . . . . 28
Fields v. City of Philadelphia,
862 F.3d 353 (3d Cir. 2017) . . . . . . . . . . . . . . . . 28
Grissom v. Roberts,
902 F.3d 1162 (10th Cir. 2018). . . . . . . . . . . . . . 29
Harlow v. Fitzgerald,
457 U.S. 800 (1982). . . . . . . . . . . . . 7, 8, 14, 27, 29
Hazelwood School District v. Kuhlmeier,
484 U.S. 260 (1988). . . . . . . . . . . 13, 19, 20, 22, 23
Healy v. James,
408 U.S. 169 (1972). . . . . . . . . . . . . . . . . . . . 10, 19
Hernandez v. Mesa,
137 S. Ct. 2003 (2017). . . . . . . . . . . . . . . . . . . . . 24
Hope v. Pelzer,
536 U.S. 730 (2002). . . . . . . . . . . . . . . . . . 9, 24, 25
Hunter v. Bryant,
502 U.S. 224 (1991). . . . . . . . . . . . . . . . . . . . . . . 24
Keefe v. Adams,
840 F.3d 523 (8th Cir. 2016), cert. denied,
137 S. Ct. 1448 (2017). . . . . . . . . 11, 14, 15, 20, 21

v
Keeton v. Anderson-Wiley,
664 F.3d 865 (11th Cir. 2011). . . . . . . . . . . . . . . 23
Morgan v. Swanson,
659 F.3d 359 (5th Cir. 2011). . . . . . . . . . . . . . . . 28
Morse v. Frederick,
551 U.S. 393 (2007). . . . . . . . . . . . . . . . . . . . . . . 19
Mullenix v. Luna,
136 S. Ct. 305 (2015). . . . . . . . . . . . . . . . . . . . . . 13
Oyama v. University of Hawaii,
813 F.3d 850 (9th Cir. 2015). . . . . . . . . . . . . 22, 23
Papish v. Board. of Curators of the University
of Missouri, 410 U.S. 667 (1973) . . . . . . . . . . . . 10
Pearson v. Callahan,
555 U.S. 223 (2009). . . . . . . . . . . . . . . 7, 15, 16, 25
Pickering v. Board of Education,
391 U.S. 563 (1968). . . . . . . . . . . . . . . . . . . . . . . 22
Procunier v. Navarette,
434 U.S. 555 (1978). . . . . . . . . . . . . . . . . . . . . . . 27
Redmond v. Crowther,
882 F.3d 927 (10th Cir. 2018). . . . . . . . . . . . . . . 14
Reed v. Palmer,
906 F.3d 540 (7th Cir. 2018). . . . . . . . . . . . . . . . 29
Reichle v. Howards,
566 U.S. 658 (2012). . . . . . . . . . . . . . . . . . . . 10, 27
Sebastian v. Ortiz,
918 F.3d 1301 (11th Cir. 2019). . . . . . . . . . . . . . 29

vi
Singleton v. Wulff,
428 U.S. 106 (1976). . . . . . . . . . . . . . . . . . . . . . . 31
Stanton v. Sims,
571 U.S. 3 (2013). . . . . . . . . . . . . . . . . . . . . . . . . 24
Tatro v. Univ. of Minn.,
816 N.W.2d 509 (Minn. 2012). . . . . . . . . . . passim
Taylor v. Barkes,
135 S. Ct. 2042 (2015). . . . . . . . . . . . . . . . . . . . . 24
Terebisi v. Torreso,
764 F.3d 217 (2d Cir. 2014) . . . . . . . . . . . . . . . . 28
Tinker v. Des Moines Independent Community
School District, 393 U.S. 503 (1969) . . . 19, 21, 22
Tolan v. Cotton,
572 U.S. 650 (2014). . . . . . . . . . . . . . . . . . . . . . . 24
Vaughn v. Ruoff,
253 F.3d 1124 (8th Cir. 2001). . . . . . . . . . . . . . . 29
Volkman v. Ryker,
736 F.3d 1084 (7th Cir. 2013). . . . . . . . . . . . 12, 26
White v. Pauly,
137 S. Ct. 548 (2017). . . . . . . . . . . . . . . . . . . . 8, 13
Wilson v. Layne,
526 U.S. 603 (1999). . . . . . . . . . . . . . . . . . . 8, 9, 10
Wood v. Ostrander,
879 F.2d 583 (9th Cir. 1989). . . . . . . . . . . . . . . . 29
Yoder v. Univ. of Louisville,
526 Fed. Appx. 537 (6th Cir. 2013) . . . . . . . . . . 23

vii
Yvonne L. ex rel. Lewis v. N.M. Dep’t of Human
Servs., 959 F.2d 883 (10th Cir. 1992). . . . . . . . . 14
STATUTES
NMSA 1978, § 61-6-11 (2005) . . . . . . . . . . . . . . . . . 21
NMSA 1978, § 61-6-15A (2017) . . . . . . . . . . . . . . . . 21
RULES
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Sup. Ct. R. 37.1. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Sup. Ct. R. 37.2. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

1
INTRODUCTION
Although an individual’s right to speak on topics of
their choosing is protected, it is not absolute. Contrary
to the position taken by Petitioner, Respondents, in
their roles as administrators of a public medical school,
have a responsibility to instill professional norms and
ensure that medical students are fully prepared to
function as professionals in the medical community.
This responsibility extends to professionalism concerns
arising from a medical student’s online conduct. The
enforcement of policies intended to ensure that medical
students are fully prepared for their chosen profession
does not violate a medical student’s First Amendment
rights.
Even if a colorable argument exists that
Respondents’ conduct violated Petitioner’s rights in an
evolving area of the law, the doctrine of qualified
immunity limits the liability of public officials in the
performance of their duties unless the conduct violated
a clearly established statutory or constitutional right at
the time of the incident. The right asserted may not be
defined at a high level of generality, but instead must
clearly prohibit the alleged conduct in the particular
circumstances at hand, such that all reasonable public
officials would understand that the conduct is
unlawful.
Petitioner has not demonstrated that the
professionalism enhancement imposed by Respondents
violated clearly established law at the time of the
events giving rise to this litigation. As such, the Tenth
Circuit did not err in affirming the district court’s grant
of qualified immunity. If the Court elects to review

2
Petitioner’s constitutional claim, it will find that
Respondents did not violate Petitioner’s First
Amendment rights under the particular circumstances
of this case. As a general matter, the Tenth Circuit has
neither “decided an important federal question in a
way that conflicts with relevant decisions of this Court”
nor “entered a decision in conflict with another United
States court of appeals on the same important matter.”
S. Ct. R. 10. The Court should therefore deny both the
petition for certiorari and Petitioner’s demand for
summary reversal.
STATEMENT OF THE CASE
I.

Factual Background

The University of New Mexico School of Medicine
(“UNMSOM”) is a state-operated training program for
future medical practitioners in the State of New
Mexico. In furtherance of its overarching mission to
fully prepare its graduates to engage in the practice of
medicine, UNMSOM has adopted various policies and
procedures, including the UNM Respectful Campus
Policy and the UNMSOM Social Media Policy (which
expressly incorporates by reference all UNMSOM
policies and the Medical Student Professional Code of
Conduct). See Appellant Paul Hunt’s Appendix,
Appellate Case 18-2149, Document 010110120480
(“Aplt. App.”) 039-046.
The Social Media Policy provides in pertinent part:
• Be mindful that all posted content is subject
to review in accordance with UNMSOM
policies and the Student Professional Code of
Conduct. . . .

3
• Exercise discretion, thoughtfulness and
respect for your colleagues, associates and
the university’s supporters/community (social
media fans). . . .
• UNMSOM does not routinely monitor
personal websites or social media outlets,
however any issues that violate any
established UNM policy will be addressed.
• Violation of this or any UNM policy may
result in disciplinary action, up to an
including dismissal from UNM.
Id. at 041.
The Respectful Campus Policy provides in pertinent
part:
Individuals at all levels are allowed to discuss
issues of concern in an open and honest manner,
without fear of reprisal or retaliation from
individuals above or below them in the
university’s hierarchy. At the same time, the
right to address issues of concern does not grant
individuals license to make untrue allegations,
unduly inflammatory statements or unduly
personal attacks, or to harass others, to violate
confidentiality requirements, or engage in other
conduct that violates the law or University
policy.
Id. at 043.
In November 2012, Petitioner Paul Hunt was a
UNMSOM medical student. App. 61. Shortly after the

4
2012 presidential election, Petitioner posted a
statement related to the election on his Facebook page.
App. 4. The Facebook post was directed to “all of you
who support the Democratic candidates.” Id. The
statement read as follows:
All right, I’ve had it. To all of you who
support the Democratic candidates. The
Republican Party sucks. But guess what. Your
party and your candidates parade their
depraved belief in legal child murder around
with pride.
Disgusting, immoral, and horrific. Don’t
celebrate Obama’s victory tonight, you sick
disgusting people. You’re abhorrent.
Shame on you for supporting the genocide
against the unborn. If you think gay marriage or
the economy or taxes or whatever else is more
important than this, you’re fucking ridiculous.
You’re WORSE than the Germans during
WW2. Many of them acted from honest
patriotism. Many of them turned a blind eye to
the genocide against the Jews. But you’re
celebrating it. Supporting it. Proudly
proclaiming it. You are a disgrace to the name of
human.
So, sincerely, fuck you, Moloch worshipping
assholes.
Id.

5
On November 15, 2012, Respondent Scott Carroll,
M.D., wrote a letter to Petitioner informing him that
the Dean of Students had formally referred Petitioner
to the Committee for Student Performance and
Evaluation (“CSPE”). Aplt. App. 93-94.1 The referral
stemmed from allegations of unprofessional conduct
made by at least three other students against
Petitioner related to the Facebook post. Id. at 93; App.
62. In the letter, Dr. Carroll stated “[w]hile you have
every right to your political beliefs, there is still a
professionalism standard that must be maintained as
a member of the UNM medical school community.”
Aplt. App. 93. The letter then quoted from the
Respectful Campus Policy, stating “the right to address
issues of concern does not grant individuals license to
make . . . unduly inflammatory statements or unduly
personal attacks, or to harass others . . . .” Id. The
letter informed Petitioner that “CSPE will be
conducting an investigation into the allegations at its
November 20th meeting” and “would like [Petitioner] to
prepare a statement regarding the allegations and be
prepared to answer questions from the committee
members.” Id.
Petitioner appeared at the meeting and participated
in the investigation. On January 4, 2013, Dr. Carroll
again wrote to Petitioner, informing him that the CSPE
investigation “substantiated that [Petitioner’s]
Facebook post was in fact unprofessional conduct due
to violations of the UNM Respectful Campus Policy and
1

Petitioner’s Appendix C, App. 55-56, contains at least one
typographical error impacting text quoted herein. Respondents
have therefore provided an alternate citation to the November 15,
2012 letter from Dr. Carrol to Mr. Hunt.

6
the UNM School of Medicine Social Medial Policy.”
App. 57. The letter informed Petitioner that he would
not be dismissed from the program, but would be given
a two-part “professional enhancement prescription.” Id.
The first part, focusing on ethics, involved mentorship
by a faculty member. Id. The second part, focusing on
professionalism, was comprised of four parts: (1) a
reflective writing assignment on the public expression
of political beliefs by physicians, (2) an apology letter,
which Petitioner could present to anyone of his choice,
or no one, (3) rewriting the Facebook post in a
professionally appropriate way, and (4) faculty
mentorship. Id. at 58.
Petitioner successfully completed all aspects of the
professional enhancement prescription, although CSPE
rejected his first rewrite of the Facebook post. App. 67.
Petitioner was advised that he could/should request
that any mention of the incident be removed from his
Dean’s letter prior to the summer before his fourth year
of medical school. Aplt. App. 100. Respondents disagree
with Petitioner’s suggestion that they “declined to
remove” the notation of the events from his file at any
time. Compare Petition for Writ of Certiorari
(“Petition”) at 8, with Aplt. App. 100.
II.

Procedural Background

Petitioner filed this case in a New Mexico state
court. Respondents removed the case to the United
States District Court for the District of New Mexico.
Petitioner alleged violations of his First and
Fourteenth Amendment rights and sought (1) damages
under § 1983, and (2) injunctive and declaratory relief.

7
Respondents filed a motion to dismiss or for
summary judgment based on a qualified immunity
theory. The parties fully briefed the motion. The
district court found that Respondents were entitled to
qualified immunity and granted summary judgment.
The district court declined to review Petitioner’s
constitutional argument.
Petitioner appealed that final judgment to the
United States Court of Appeals for the Tenth Circuit.
Petitioner argued that the district court erred in
granting qualified immunity to Respondents. Petitioner
also argued that the district court erred in declining to
review Petitioner’s constitutional argument. The Tenth
Circuit affirmed the district court’s grant of qualified
immunity because “the law in late 2012 and 2013
would not have given the defendants notice that their
response to the Facebook post was unconstitutional.”
App. 22 (citing Anderson v. Creighton, 483 U.S. 635,
640 (1987). The Court of Appeals declined to review
Petitioner’s constitutional argument. App. 10-11.
REASONS TO DENY THE PETITION
I.

The Tenth Circuit Correctly Applied this
Court’s Qualified Immunity Analysis to the
Particular Circumstances of this Case

This is a qualified immunity case. It is black-letter
law that “[t]he doctrine of qualified immunity protects
government officials ‘from liability for civil damages
insofar as their conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known.’” Pearson v.
Callahan, 555 U.S. 223, 231 (2009) (quoting Harlow v.

8
Fitzgerald, 457 U.S. 800, 818 (1982)). Dating back to
Harlow, this language forms the basis of all qualified
immunity analyses in all jurisdictions. It applies
equally to alleged statutory and constitutional
violations of all types. Diligent research reveals no case
law from this Court indicating that there is an
alternate standard that lower courts should apply.
When entitlement to qualified immunity is the issue,
the analysis always turns on whether or not the
allegedly violated right was “clearly established.” See
id.
It is equally clear that, in order for a constitutional
right to be “clearly established,” “existing precedent
must have placed the statutory or constitutional
question beyond debate.” White v. Pauly, 137 S. Ct. 548,
551 (2017) (emphasis added) (internal quotation marks
and citation omitted). A constitutional question is
placed beyond debate by either “controlling authority”
from this Court or the relevant circuit court, or “a
robust ‘consensus of cases of persuasive authority.’”
Ashcroft v. al-Kidd, 563 U.S. 731, 742 (2011) (quoting
Wilson v. Layne, 526 U.S. 603, 617 (1999)). “It is not
enough that the rule is suggested by then-existing
precedent.” Dist. of Columbia v. Wesby, 138 S. Ct. 577,
590 (2018). “The precedent must be clear enough that
every reasonable official would interpret it to establish
the particular rule the plaintiff seeks to apply.
Otherwise the rule is not one that every reasonable
official would know.” Id. (internal quotation marks and
citations omitted)). While a plaintiff need not identify
case law in which “the very action in question has
previously been held unlawful,” the unlawfulness must

9
be apparent “in the light of the pre-existing law.” Hope
v. Pelzer, 536 U.S. 730, 739 (2002).
If there is no case law analyzing “the very action in
question,” id., a court may analyze whether the alleged
constitutional violation is such an “obvious case” that
a body of relevant case law is unnecessary to find a
violation of clearly established law. See Brosseau v.
Haugen, 543 U.S. 194, 198-99 (2004) (reversing the
Court of Appeal’s denial of qualified immunity and
noting that “the present case is far from the obvious
case where [general statements of law] alone offer a
basis for decision”). In his entire brief, Petitioner cites
only one case in which a majority of this Court
concluded that the alleged conduct was an “obvious”
constitutional violation—and that opinion (1) did not
analyze a First Amendment claim, and (2) was not
unanimous. See Hope, 536 U.S. at 738 (applying a
qualified immunity analysis to an alleged Eighth
Amendment violation); id. at 748 (Thomas, J.
dissenting) (noting that “[q]ualified immunity
jurisprudence has been turned on its head” by the
majority). As demonstrated by the absence of relevant
authority, it seems that the “obvious case” is
exceedingly rare. Brosseau, 543 U.S. at 199. See Wesby,
138 S. Ct. at 581 (noting the possibility of “the rare
obvious case” where the unlawfulness of conduct is
clear even though existing precedent does not address
similar circumstances).
This Court has “repeatedly” instructed lower courts
“not to define clearly established law at a high level of
generality” when conducting qualified immunity
analyses. al-Kidd, 563 at 742 (citing Wilson, 526 U.S.

10
at 615; Anderson, 483 U.S. at 639-40). Instead, the
stated legal principle must “clearly prohibit” the
alleged conduct “in the particular circumstances” at
hand, which requires “a high degree of specificity.”
Wesby, 138 S. Ct. at 590 (internal quotation marks and
citation omitted). These instructions apply equally to
First Amendment claims. See, e.g., Reichle v. Howards,
566 U.S. 658, 664-65 (2012) (analyzing the plaintiff’s
First Amendment claim and holding that “the right
allegedly violated must be established not as a broad
general proposition but in a particularized sense so
that the contours of the right are clear to a reasonable
official” (internal quotation marks and citations
omitted)).
The instant case results from Respondents’ decision
to impose a professionalism enhancement on Petitioner
for a Facebook post that violated UNMSOM’s
standards of professional conduct for future medical
practitioners. As discussed at length in the briefing to
the lower courts, and in the Tenth Circuit’s Order and
Judgment, there is no case law from any jurisdiction
holding that imposing a professionalism enhancement
program “in the particular circumstances” present in
this case constitutes a violation of Petitioner’s First
Amendment rights. Wesby, 138 S. Ct. at 590. To the
contrary, the Tenth Circuit concluded that controlling
cases analyzing First Amendment issues in the public
university setting, including Healy v. James, 408 U.S.
169 (1972) and Papish v. Bd. of Curators of the Univ. of
Mo., 410 U.S. 667 (1973), failed to send “sufficiently
clear signals to reasonable medical school instructors
that sanctioning a student’s off-campus online speech
for the purpose of instilling professional norms is

11
unconstitutional.” App. 19. Moreover, Respondents
cited cases from various jurisdictions holding that
imposing discipline on professional students in
response to online conduct did not constitute a First
Amendment violation under the facts of those cases.
See, e.g., Keefe v. Adams, 840 F.3d 523, 529-33 (8th Cir.
2016) (finding no First Amendment violation when a
student was suspended from a nursing program at a
public college for “on-line, off-campus Facebook
postings” that the school deemed unprofessional and in
violation of governing codes of conduct), cert. denied,
137 S. Ct. 1448 (2017); Tatro v. Univ. of Minn., 816
N.W.2d 509, 521 (Minn. 2012) (holding that the
imposition of sanctions on a professional student for
Facebook posts that violate academic program rules
tied to professional conduct standards is not a violation
of free speech rights (citing Christian Legal Soc’y v.
Martinez, 561 U.S. 661, 686 (2010)).
Petitioner now argues (for the first time) that the
lower courts erred in searching for analogous case law
that would put Respondents on notice that the
disciplinary action was unlawful because this case
presents an “obvious” First Amendment violation. See
Petition at 18, 21. In support of this claim, Petitioner
advances a novel argument that a court applying a
qualified immunity analysis to an alleged First
Amendment violation should apply a different standard
than a court applying a qualified immunity analysis to
an alleged Fourth Amendment violation. The rationale
underlying Petitioner’s theory is that the
circumstances that lead to Fourth Amendment
violations result from “split-second” decisions, whereas
state actors making decisions about speech must need

12
less specific guidance from courts because the
circumstances in which they make their decisions
unfold more slowly or are not fact-specific. See id. at
20-21.
Petitioner cites no legal authority for the
proposition that a diminished standard applies (or
should apply) to First Amendment claims. In cobbling
together support for this argument, Petitioner
misquotes or truncates circuit court opinions granting
qualified immunity to state actors alleged to have
violated the First Amendment. Compare id. at 21, with
Volkman v. Ryker, 736 F.3d 1084, 1090 (7th Cir. 2013)
(noting that “[t]here are fact-intensive considerations
at play” and holding that “this is not so easy a case that
citing to a general proposition of law is enough to show
that any reasonable office would have known that to
restrict or punish [appellant’s] speech was
unconstitutional”) (emphasis added), and Belsito
Commc’ns, Inc. v. Decker, 845 F.3d 13, 23 (1st Cir.
2016) (affirming the district court’s grant of qualified
immunity on the appellant’s First Amendment claim
and holding that the “relevant legal rights and
obligations must be particularized enough that a
reasonable official can be expected to extrapolate from
them and conclude that a certain course of conduct will
violate the law”) (emphasis added).
There is no reasonable argument that the First
Amendment case law existing in November 2012 made
clear to all public university officials (including public
medical school administrators) that sanctioning
Petitioner for his objectively unprofessional Facebook
post would constitute a First Amendment violation. See

13
al-Kidd, 563 U.S. at 741 (“A Government official’s
conduct violates clearly established law when, at the
time of the challenged conduct, the contours of a right
are sufficiently clear that every reasonable official
would have understood that what he is doing violates
that right.” (emphasis added) (alterations, internal
quotation marks, and citation omitted)); White, 137
S. Ct. at 551 (holding that qualified immunity “protects
‘all but the plainly incompetent or those who knowingly
violate the law.’” (quoting Mullenix v. Luna, 136 S. Ct.
305, 308 (2015)).
Nor is there any reasonable argument that the
School of Medicine’s conduct constituted an “obvious”
constitutional violation. Brosseau, 543 U.S. at 199. As
stated in Hazelwood School District v. Kuhlmeier, 484
U.S. 260, 266 (1988), the First Amendment rights of
public school students “must be applied in light of the
special characteristics of the school environment.”
(Internal quotation marks and citation omitted.)
Applying this understanding, Hazelwood holds that
educators do not violate the First Amendment by
exercising control over student speech “so long as their
actions are reasonably related to legitimate pedagogical
concerns.” Id. at 273. There is more involved with
training to become, and becoming, a licensed medical
practitioner than simply participating in a medical
school curriculum. Petitioner’s arguments completely
ignore the fact that UNMSOM has a legitimate
pedagogical concern in ensuring that Petitioner is
properly prepared to be a medical provider—if for no
other reason than that a medical degree from the
school carries with it a tacit endorsement of fitness to
practice medicine. It is not patently obvious, and no

14
court has held, that a medical school (or other
professional school) administrator violates a student’s
First Amendment rights by enforcing standards of
professionalism with respect to the student’s online
activity.
Next, Petitioner attempts to factually distinguish
two cases (Keefe and Tatro) cited by Respondents and
the Tenth Circuit for the proposition that qualified
immunity was appropriate under the circumstances.
See Petition at 21-24. This attempt is ineffective and
betrays the failure of Petitioner’s argument generally.
Neither Respondents nor the Tenth Circuit have
asserted that these cases or any other case inarguably
authorized the School of Medicine to impose discipline
in response to Petitioner’s online activity. Were that
the case, it is exceedingly unlikely that this litigation
would have come this far. However, Respondents do not
have the burden to prove the existence of case law
authorizing their conduct; instead, Petitioner has the
burden to prove that the conduct was clearly unlawful
at the time it occurred. See, e.g., Yvonne L. ex rel. Lewis
v. N.M. Dep’t of Human Servs., 959 F.2d 883, 890 (10th
Cir. 1992) (“Even if defendants did violate plaintiffs’
constitutional rights, as governmental officials
performing discretionary duties they are immune from
civil liability if their conduct did not violate a clearly
established statutory or constitutional right of which a
reasonable person would have known.” (citing Harlow,
457 U.S. at 819)); Redmond v. Crowther, 882 F.3d 927,
936 (10th Cir. 2018) (affirming summary judgment on
the basis of qualified immunity where “even assuming”
violations of the Eighth Amendment occurred, the

15
plaintiff “fails to cite anything that clearly established
th[e] right”).
Both Keefe and Tatro stand for the proposition that
a public university may discipline professional students
for violations of standards of professionalism for the
field in which the student is training. The existence of
these cases casts doubt on Petitioner’s claim that the
discipline imposed by the School of Medicine is an
“obvious” violation of the First Amendment. Moreover,
Petitioner’s failure to bring forward any factually
analogous cases that support his argument strengthens
Respondents’ claim that qualified immunity applies to
the particular facts of this case, because Petitioner’s
interpretation of the law was not “clearly established”
at the time of the alleged violation. Pearson, 555 U.S.
at 231.
Finally, in an apparent attempt to shift attention
from the correct analysis, Petitioner repeatedly
misstates the analysis courts apply to a defendant’s
claim for qualified immunity. For example, in asserting
that qualified immunity should not apply here,
Petitioner argues that “no decision of this Court or the
Tenth Circuit comes close to holding that this kind of
restriction on speech is protected.” Petition at 18. See
also id. at 24 (stating that out of circuit cases could not
have “led Respondents to believe that they could
lawfully punish [Petitioner] for exercising his right to
free speech”); id. at 21 (stating that cases cited by the
Tenth Circuit “don’t make the case for qualified
immunity stronger”). These statements, intentionally
or unintentionally, invert the analysis and create
confusion in the mind of the reader as to whether a

16
grant of qualified immunity was appropriate in this
case. Again, Petitioner has the burden to prove that the
conduct at issue was clearly unlawful at the time it
occurred. Pearson, 555 U.S. at 231.
The Tenth Circuit properly applied the qualified
immunity analysis in this case. As stated in the
Judgment and Order, Petitioner has “provided a
patchwork of cases connected by broad legal principles,
but the law in late 2012 and 2013 would not have given
the defendants notice that their response to the
Facebook post was unconstitutional.” App. 22 (citing
Anderson, 483 U.S. at 640). Additional analysis of this
issue by this Court is unwarranted at this time.
II.

Petitioner’s First Amendment Rights Were
Not Violated

Neither the district court nor the Tenth Circuit
decided the underlying constitutional question as to
whether Respondents violated Petitioner’s First
Amendment rights. Instead, the case was decided on
the basis of qualified immunity. In doing so, those
courts followed this Court’s admonitions concerning the
advisability of applying the principle of constitutional
avoidance in qualified immunity cases. In Camreta v.
Greene, this Court stated “indeed, our usual
adjudicatory rules suggest that a court should forbear
resolving this [constitutional] issue. After all, a
longstanding principle of judicial restraint requires
that courts avoid reaching constitutional questions in
advance of the necessity of deciding them.” 563 U.S.
692, 705 (2011) (emphasis in original) (internal
quotation marks and citations omitted). As was further
stated in Camreta, “[i]n general, courts should think

17
hard, and then think hard again, before turning small
cases into large ones.” Id. at 707.
As discussed briefly above, the Court should apply
this principle here to avoid expending its scarce
resources to unnecessary decide the constitutional
issue and turn this small case into a large one. Indeed,
it is difficult to imagine a smaller case than this one.
Petitioner was not expelled or suspended nor was he
even given a failing grade in any course. Instead, he
was merely given a few writing assignments and
required to meet with a faculty mentor, all of which
was designed to further his education as to the
professionalism required of a medical doctor. Courts
have considered the seriousness of the actions taken by
the school in determining whether a First Amendment
violation has occurred. See Doninger v. Niehoff, 327
F.3d 41, 53 (2d Cir. 2008) (mere disqualification from
student office because of offensive web post raises no
constitutional concern); Tatro, 816 N.W.2d at 524
(student was not expelled or suspended, failing grade
in class did not violate First Amendment).2
However, should the Court choose to consider the
constitutional question, it should find that
Respondents’ actions were consistent with schoolrelated First Amendment principles announced by the
Court and also were consistent with more factually
analogous cases decided by other courts pertaining to

2

While the potential existed that a letter in his file noting the
violation might be sent to hospitals to which Petitioner might
apply for a residency, such event never occurred as Petitioner did
not graduate from UNMSOM.

18
the First Amendment rights of students in professional
schools.
Initially it should be made clear that Petitioner was
not punished for the content of his political speech and,
therefore, any cases speaking of the strict scrutiny
given restrictions on political speech are not applicable.
Respondents did not react to the fact that Petitioner’s
post argued that abortion was a wrongful act of child
murder and was a far more important issue than “gay
marriage” or “the economy” or “taxes”. Instead, the
consequences imposed on Petitioner were based on his
completely unhinged ad hominem attack on anyone
who disagreed with him, asserting they were worse
than Nazis, calling them “sick disgusting,” “abhorrent,”
“ridiculous,” “Moloch worshipping assholes,” who are “a
disgrace to the name of human”. App. 4. Nor was such
language objected to by Respondent because of its
“tone” as is suggested by Petitioner, but because the
language clearly and unmistakably violated the
Respectful Campus Policy which prohibited “untrue
allegations, unduly inflammatory statements or unduly
personal attacks.” Aplt. App. 043. “Resort to epithets or
personal abuse is not in any proper sense
communication of information or opinion safeguarded
by the Constitution . . . .” Chaplinsky v. State of New
Hampshire, 315 U.S. 568, 572 (1942) (internal
quotation marks and citation omitted).
Proof that Respondents’ actions were not directed at
restricting political speech is shown at Aplt. App 098099, which is the version of the re-written Facebook
post approved by Respondents. As can be seen, the
political message concerning abortion remains

19
essentially the same as in the original post. What has
been removed is the vitriolic scree directed at all those
who would disagree with Petitioner’s position on the
issue.
Petitioner argues that this Court has limited a
school’s ability to regulate student speech by its
decisions in Tinker v. Des Moines Independent
Community School District, 393 U.S. 503 (1969) and
Healy, 408 US 169 (1972). Tinker is the seminal school
speech case with respect to high school students. It
holds that high school students and teachers retain
their First Amendment rights within the schoolhouse
and introduced the “materially and substantially
interfere” standard for censoring or sanctioning
otherwise protected speech. 393 U.S. at 506, 509. In
Healy, the Court clarified that the same rights
generally apply in the university setting but also stated
that “as Mr. Justice Fortas made clear in Tinker, First
Amendment rights must always be applied ‘in light of
the special characteristics of the . . . environment, in
the particular case’” 408 U.S. at 180.
In Bethel School District No. 403 v. Fraser, 478 U.S.
675, 685-86 (1986), the Court permitted the restriction
of student speech that was plainly offensive without a
finding of disruption. Then in Hazelwood, the Court
held that student speech in a school-sponsored medium
could be restricted by school officials if the action was
“reasonably related to legitimate pedagogical concerns.”
484 U.S. at 273. Finally, in Morse v. Frederick, 551 U.S.
393, 397 (2007), the Court held that schools could
restrict student speech that encouraged illegal drug
use.

20
The Court has not to date dealt with a free speech
case involving the “special characteristics” of a
graduate or professional school. Several lower courts
have, however, and their decisions support the
constitutionality of the Respondents’ actions here.
Particularly on point is Keefe v. Adams. There, the
Eighth Circuit dealt with the dismissal of a nursing
student because of his posting of several offensive
Facebook posts which the school believed violated the
professionalism standards of The Nurses Association
Code of Ethics. Keefe, 840 F.3d 523, 529-33 (8th Cir.
2016). Noting that “many courts have upheld
enforcement of academic requirements of
professionalism and fitness, particularly for a program
training licensed medical professionals,” the court
pointed out that “[f]itness to practice as a health care
professional goes beyond satisfactory performance of
academic course work.” Id. at 530.
The Eighth Circuit then went on to hold that,
“[g]iven the strong state interest in regulating health
professions, teaching and enforcing viewpoint-neutral
professional codes of ethics are a legitimate part of a
professional school’s curriculum that do not, at least on
their face, run afoul of the First Amendment,” id., and
that “[t]herefore college administrators and educators
in a professional school have discretion to require
compliance with recognized standards of the profession
both on and off campus, ‘so long as their actions are
reasonably related to legitimate pedagogical concerns.’”
Id. at 531 (quoting Hazelwood, 484 U.S. at 273).
In concluding that Keefe’s First Amendment rights
had not been violated, the court also held that, “[c]ourts

21
should be particularly cautious before interfering with
the ‘degree requirements in the health care field when
the conferral of a degree places the school’s imprimatur
upon the student as qualified to pursue his chosen
profession.’” Id. at 533 (quoting Doherty v. S. Coll. of
Optometry, 862 F.2d 570, 576 (6th Cir. 1988).
On this latter point, New Mexico, like most if not all
states, relies on medical schools to act as gatekeepers
to insure that only qualified individuals enter the
medical profession by requiring by statute that only
graduates of accredited or board-approved medical
schools may be licensed to practice medicine. See
NMSA 1978, § 61-6-11 (2005). Further, the New Mexico
Medical Board itself may revoke or suspend the license
to practice of a physician or otherwise discipline that
practitioner for “unprofessional or dishonorable
conduct.” NMSA 1978, § 61-6-15A (2017). Consequently
it behooves UNMSOM to both instruct its students on
the contours of what constitutes professional conduct
and to insure that the imprimatur of its diplomas are
not conferred on students who do not live up to the
standards of the medical profession.
Tatro v. University of Minnesota is also relevant. In
that case, the plaintiff was a student in the University
of Minnesota’s mortuary science program. She posted
on Facebook statements that she characterized as
“satirical commentary and violent fantasy about her
school experience.” Tatro, 816 N.W.2d at 511. These
included posts about dissecting a cadaver. The
Minnesota Supreme Court began its analysis by noting
that “courts often have applied the Tinker substantial
disruption standard . . . to the regulation of student

22
speech over the Internet.” Id. at 518. The court
however declined to do so as Tinker “does not fit the
purposes of the sanctions here. The driving force
behind the University’s discipline was not Tatro’s
violation of academic program rules created a
substantial disruption on campus or within the
Mortuary Science Program, but that her Facebook
posts violated established program rules that require
respect, discretion and confidentiality in connection
with work on human cadavers.” Id. at 520. The
Minnesota court adopted the following standard: “[W]e
hold that a university does not violate the free speech
rights of a student enrolled in a professional program
when the university imposes sanctions for Facebook
posts that violate academic program rules that are
narrowly tailored and directly related to established
professional conduct standards.” Id. at 521.
Several cases in other jurisdictions have discussed
the appropriate legal framework for First Amendment
claims by students in professional programs. In Oyama
v. University of Hawaii, 813 F.3d 850 (9th Cir. 2015), a
student was denied admission to a student teaching
program for statements about disabled students and
sexual relationships between underage students and
teachers. The circuit court, after considering the
application of student speech cases such as Hazelwood
and public employee speech doctrine from Pickering v.
Board of Education, 391 U.S. 563 (1968), and its
progeny, applied the standard adopted by the Tatro
court, holding “[t]he University of Hawaii’s decision to
deny Oyama’s student teaching application did not
offend the First Amendment because it related directly
to defined and established professional standards, was

23
narrowly tailored to serve the University’s foundational
mission of evaluating Oyama’s suitability for teaching,
and reflected reasonable professional judgment.” 813
F.3d at 868. See also Keeton v. Anderson-Wiley, 664
F.3d 865, 872 (11th Cir. 2011) (holding university did
not violate student’s free speech rights in imposing a
remediation plan after student in a counselor education
program at a Georgia university stated in class and to
fellow students outside class that she would attempt to
convert homosexual clients to heterosexuality based on
her religious beliefs; university officials determined
that these statements expressed her intent to violate
the code of ethics of the counseling association); Yoder
v. Univ. of Louisville, 526 Fed. Appx. 537, 545 (6th Cir.
2013) (non-precedential) (affirming ruling that
dismissal of nursing student for blogging about a
patient did not violate First Amendment rights of
nursing student). In all of these cases, the courts
recognized that the First Amendment does not require
a university to retain students or accept the behavior
of students who do not meet standards for professional
behavior in statements made in social media or
otherwise outside the classroom.
Petitioner’s Facebook post violated the standards of
UNMSOM. UNMSOM teaches students that because
of the stature of a physician with his or her patients
and the influence that the physician can assert over
patients or potential patients, it is essential that
physician’s statements must not be broadcast in
inappropriate ways and forums. This is an appropriate
pedagogical concern and, under the analysis imposed
by this Court in Hazelwood, the actions of Respondents

24
in addressing this concern with Petitioner did not
violate his First Amendment rights.
III.

Both Additional Review and Summary
Reversal Are Unwarranted in this Case

Petitioner makes several additional points and
arguments in favor of reversal or additional review.
Respondents address these in order.
First, Petitioner broadly asserts that the grant of
qualified immunity resulted from a misapplication of
the qualified immunity analysis and therefore must be
summarily reversed. Petition at 26. Petitioner cites
various cases standing for the proposition that this
Court has the power to summarily reverse when it
believes that a lower court has misapplied the qualified
immunity analysis. Id. This is correct, as is Petitioner’s
observation that this procedure has overwhelmingly
been used to reverse a denial of qualified immunity.
See, e.g., Hunter v. Bryant, 502 U.S. 224, 229 (1991)
(summarily reversing the Court of Appeal’s denial of
qualified immunity); Brosseau, 543 U.S. at 201 (same);
Taylor v. Barkes, 135 S. Ct. 2042, 2045 (2015) (same);
Stanton v. Sims, 571 U.S. 3, 10-11 (2013) (same).
Cases summarily reversing a grant of qualified
immunity appear harder to find. Although the Court
did reverse in Hope v. Pelzer and Hernandez v. Mesa,
137 S. Ct. 2003 (2017), the third case cited by
Petitioner, Tolan v. Cotton, 572 U.S. 650, 657-59
(2014), was summarily reversed because the Court of
Appeals improperly weighed the facts on summary
judgment, not because it misapplied the qualified
immunity analysis.

25
Regardless, there is no doubt that the Court can
summarily reverse in either direction. Substantively,
Petitioner uses these cases, and particularly Hope v.
Pelzer, to restate his argument that this case presents
an obvious constitutional violation by reference to a
defendant’s “notice” of unlawful conduct “in novel
factual circumstances.” See Petition at 26-27 (citing
Hope, 536 U.S. at 741). Respondents addressed this
argument supra.
Next, Petitioner argues that this Court should
reverse because “no basis exists for granting qualified
immunity” unless the lower courts explain how
“unsettled legal issues” in First Amendment cases were
“material” to Petitioner’s First Amendment claim.
Petition at 27. This argument is confusing, given that
the existence of unsettled legal issues, or the absence
of “clearly established law,” is the entire predicate for
a qualified immunity defense. al-Kidd, 563 U.S. at 741.
While it is clear that Petitioner believes that he is
entitled to a full constitutional analysis, both the
district court and the Tenth Circuit exercised their
discretion in conducting a qualified immunity analysis
rather than engaging in the constitutional analysis
that Petitioner seeks. See Pearson, 555 U.S. at 236
(holding that courts have discretion “to decid[e] which
of the two prongs of the qualified immunity analysis
should be addressed first”); Camreta, 563 U.S. at 707
(admonishing courts to “think hard, and then think
hard again, before” addressing both prongs of the
qualified immunity analysis). Neither court abused its
discretion in doing so.

26
Third, Petitioner argues that the circuit courts are
divided on the proper test for granting qualified
immunity—both with respect to the degree of factual
similarity that must exist to demonstrate that the law
is clearly established and the sources that courts may
consider in determining the existence of clearly
established law. Petition at 27-30.
With respect to the degree of factual similarity that
is required to determine that the law is clearly
established, the circuit court cases cited by Petitioner
do articulate the challenge courts face in striking a
balance between defining a right too narrowly and
defining it too broadly. See, e.g., Volkman, 736 F.3d at
1090 (stating that, “[t]ypically, the difficult part of this
inquiry is identifying the level of generality at with the
constitutional right must be established” (internal
quotation marks and citation omitted)). This challenge
is not, however, lost on this Court. In its most recent
application of the qualified immunity analysis, this
Court stressed the difficulty courts have with this
analysis. See City of Escondido, Cal. v. Emmons, 139 S.
Ct. 500, 503 (2019) (citing cases and noting that the
Court has explained the qualified immunity analysis
“many times”). The Court then proceeded to reverse the
Court of Appeal’s denial of qualified immunity,
reiterating that the clearly established constitutional
right “must be defined with specificity” and that
qualified immunity applies “unless existing precedent
squarely governs the specific facts at issue.” Id.
(emphasis added) (internal quotation marks and
citation omitted). While Emmons is a Fourth
Amendment case, the standard applies equally to First
Amendment cases. In its most recent application of the

27
qualified immunity analysis to an alleged violation of
the First Amendment, this Court held “that the right
allegedly violated must be established not as a broad
general proposition, but in a particularized sense so
that the contours of the right are clear to a reasonable
official.” Reichle, 566 U.S. at 665 (internal quotation
marks and citations omitted). The Court continued its
analysis, noting that the question “is not the general
right to be free from retaliation for one’s speech, but
the more specific right” to be free from retaliation
under the facts of the case.
If district or circuit courts are periodically applying
the qualified immunity analysis incorrectly, that is
what the appellate process is for. It stretches credulity,
however, to argue that this Court has been unclear as
to what the correct standard is, or could further clarify
the analysis using the facts of this case.
Finally, Petitioner argues that courts are in
disagreement about the sources of law or level of
consensus that is necessary to clearly establish the law
for purposes of a qualified immunity analysis. It
appears that Petitioner would like the Court to define
a uniform standard for what sources of authority can
be used to clearly establish law for purposes of
qualified immunity, which, of course, the Court has
never done. See Harlow, 457 U.S. at 818 n.32 (quoting
Procunier v. Navarette, 434 U.S. 555, 565 (1978) and
expressly declining to decide whether “the state of the
law should be evaluated by reference to the opinions of
this Court, the Courts of Appeals, or of the local district
courts”).

28
Recent opinions from this Court make clear that
controlling precedent is not required and that “a robust
consensus of cases of persuasive authority,” al-Kidd,
563 U.S. at 742 (internal quotation marks and citations
omitted), is sufficient as long as “[t]he precedent [is]
clear enough that every reasonable official would
interpret it to establish the particular rule the plaintiff
seeks to apply.” Wesby, 138 S. Ct. at 590. Every single
circuit court has stated some permutation of this
general rule. See, e.g., Eves v. LePage, 842 F.3d 133,
144 n.6 (1st Cir. 2016) (“In the absence of controlling
authority from the Supreme Court or this court, the . . .
burden is to identify a consensus of cases of persuasive
authority from our sister circuits” (quotation marks
and citations omitted)); Terebisi v. Torreso, 764 F.3d
217, 231 (2d Cir. 2014) (“To determine whether the
relevant law was clearly established, we consider . . .
the existence of Supreme Court or Court of Appeals
case law on the subject . . . .”); Fields v. City of
Philadelphia, 862 F.3d 353, 361 (3d Cir. 2017) (“We do
not need Supreme Court precedent or binding Third
Circuit precedent to guide us if there is a robust
consensus of cases of persuasive authority in the
Courts of Appeals.” (quotation marks and citations
omitted)); Booker v. S.C. Dept. of Corrs., 855 F.3d 533,
545 (4th Cir. 2017) (“A right may be clearly established
if a general constitutional rule already identified in the
decisional law applies with obvious clarity to the
specific conduct in question” or if “based on a consensus
of cases of persuasive authority from other
jurisdictions” (alterations, quotation marks and
citations omitted)); Morgan v. Swanson, 659 F.3d 359,
371-72 (5th Cir. 2011) (holding that the law is clearly
established if the court is “able to point to controlling

29
authority—or a robust consensus of persuasive
authority—that defines the contours of the right in
question with a high degree of particularity” (quotation
marks and citation omitted)); Brown v. Battle Creek
Police Dept., 844 F.3d 556, 567 (6th Cir. 2016) (“In
inquiring whether a constitutional right is clearly
established, we must look first to the decisions of the
Supreme Court, then to decisions of this court and
other courts within our circuit, and finally to decisions
of other circuits” (quotation marks and citations
omitted)); Reed v. Palmer, 906 F.3d 540, 547 (7th Cir.
2018) (“We look first to controlling Supreme Court
precedent and our own circuit decisions on the issue. If
no controlling precedent exists, we broaden our survey
to include all relevant case law . . . .” (quotation marks
and citations omitted)); Vaughn v. Ruoff, 253 F.3d
1124, 1129 (8th Cir. 2001) (“[W]e look to all available
decisional law, including decisions from other courts,
federal and state, when there is no binding precedent
in this circuit.”); Wood v. Ostrander, 879 F.2d 583, 591
(9th Cir. 1989) (“[I]n the absence of binding precedent,
a court should look to whatever decisional law is
available to ascertain whether the law is clearly
established under the Harlow test. The available
decisional law includes cases from state courts, other
circuits, and district courts.” (quotation marks and
citations omitted)); Grissom v. Roberts, 902 F.3d 1162,
1168 (10th Cir. 2018) (“[O]rdinarily, in order for the
law to be clearly established, there must be a Supreme
Court or Tenth Circuit decision on point, or the clearly
established weight of authority from other courts must
have found the law to be as the plaintiff maintains.”
(quotation marks and citations omitted)); Sebastian v.
Ortiz, 918 F.3d 1301, 1307 (11th Cir. 2019) (“For these

30
purposes, clearly established law consists of holdings of
the Supreme Court, the Eleventh Circuit, or the
highest court of the relevant state.”). These standards
(as between the circuits) are not so disparate so as to
justify granting certiorari to resolve this issue alone,
particularly where there is no analogous case, from any
federal or state court, that has held that the conduct at
issue in this case constituted a First Amendment
violation.
IV.

Amici Curiae Briefs

Four different groups have submitted amici curiae
briefs in this matter. An amicus curiae brief is helpful
only if it raises relevant issues not already brought to
the attention of the Court by the parties. S. Ct. R. 37.1.
With the exception of issues raised in the briefs that
were not raised or decided below, none of the submitted
briefs meet this standard.
Review of each brief reveals that the amici curiae
believe that a constitutional violation has occurred in
this case. Each brief ably argues First Amendment law
in support of this position. Each brief cites the same
foundational cases for the general proposition that the
government cannot generally limit student speech. This
argument was also ably made by Petitioner himself.
See Petition at 10-17; see also S. Ct. R. 37.2 (providing
that amicus curiae briefs that do not raise new issues
are not favored).
That said, none of the briefs specifically address
(1) the Tenth Circuit’s application of this Court’s
qualified immunity analysis to the facts of this case, or
(2) the issue of whether a state operated medical school

31
(or other professional school) can regulate a graduate
student’s online conduct for purposes of instilling
professional norms for the student’s chosen profession.
These are the issues before the Court in this case.
General First Amendment analysis, while informative,
is unhelpful in deciding the issues before the Court.
Respondents have already addressed Petitioner’s
argument that the conduct at issue constitutes an
obvious First Amendment violation and decline to do so
again in response to each amici curiae.
In addition to their broad constitutional arguments,
some of the amici curiae attempt to frame UNMSOM’s
policies as either vague or overbroad, to raise
tangentially related issues such as “professional
speech,” or to characterize Petitioner’s re-write of the
Facebook post at issue as compelled speech. None of
these issues were raised or argued to the district court.
It is a well-established general rule “that a federal
appellate court does not consider an issue not passed
on below.” Singleton v. Wulff, 428 U.S. 106, 120 (1976).
Both Petitioner and the then-amici curiae attempted to
raise these issues for the first time on appeal at the
Tenth Circuit. The Tenth Circuit declined to review
these arguments. App. 9 n.2 (stating that Petitioner did
not raise the issues of vagueness, overbreadth, or
compelled speech at the district court level and

32
declining to address the same for the first time on
appeal). This Court should do the same.3
CONCLUSION
The Court should deny both the petition for
certiorari and request for summary reversal.
Respectfully submitted,
STEPHEN S. HAMILTON
Counsel of Record
MATTHEW A. ZIDOVSKY
KARI E. OLSON
MONTGOMERY & ANDREWS, P.A.
P.O. Box 2307
Santa Fe, New Mexico 87504-2307
(505) 982-3873
shamilton@montand.com
mzidovsky@montand.com
kolson@montand.com
Counsel for Respondents
3

With respect to the issues of vagueness and overbreadth in
particular, Respondents would be prejudiced by review at this
time. As discussed in their brief to the Tenth Circuit, Respondents’
decision to sanction Petitioner was not based on the language of
the Respectful Campus Policy alone as implied by amici curiae.
Petitioner’s online conduct also violated provisions of the UNM
Medical School Handbook and the Medical Student Code of
Professional Conduct, which are fully incorporated by reference
into the Respectful Campus Policy. Because Petitioner did not
argue vagueness or overbreadth in the district court, these
additional policies were not part of Respondents’ defense in that
court and are not part of the record on appeal. This absence
highlights the rationale underlying the general rule that issues not
be raised for the first time on appeal.

